                                       SOCIAL SECURITY
MEMORANDUM

Date:      June 22, 2007                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)


           The attached final report presents the results of our audit. Our objective was to review
           the Social Security Administration’s actions pertaining to cross-program recovery of
           benefit overpayments as authorized by the Social Security Protection Act of 2004.

           Please provide within 60 days a corrective action plan that addresses each
           recommendation. If you wish to discuss the final report, please call me or have your
           staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
           (410) 965-9700.




                                                              Patrick P. O’Carroll, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



    CROSS-PROGRAM RECOVERY OF
      BENEFIT OVERPAYMENTS


    June 2007    A-13-06-16031




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             Executive Summary
OBJECTIVE
Our objective was to review the Social Security Administration’s (SSA) actions
pertaining to cross-program recovery of benefit overpayments as authorized by the
Social Security Protection Act of 2004 (SSPA).

BACKGROUND
Cross-program recovery is the process of collecting overpayments by withholding the
payable benefits individuals are to receive from another SSA-administered benefit
program. Before SSPA was enacted in March 2004, the Agency had limited authority to
collect overpayments using cross-program recovery. SSPA reaffirmed the Agency’s
authority to collect Supplemental Security Income (SSI) overpayments under section
1147 of the Social Security Act and expanded its authority by allowing SSA to use
cross-program recovery to collect Old-Age, Survivors and Disability Insurance (OASDI)
overpayments from SSI payments.

RESULTS OF REVIEW
The Agency has not fully implemented its cross-program authority as authorized under
SSPA. Specifically, the Agency is not collecting OASDI overpayments from current SSI
payments. As of March 2007, SSA’s plans only addressed using cross-program
authority to offset overpayments from underpayments. Agency staff stated SSA had not
made a decision to collect OASDI overpayments from monthly SSI payments. For the
records we reviewed, we estimate SSA could collect a maximum of about $3.6 million
over a 21-month period from SSI payments to recover OASDI overpayments. The
amounts recovered could also earn about $149,000 in interest for the OASDI trust funds
over a 21-month period. In addition, we found SSA did not always collect SSI
overpayments using cross-program recovery, as required by existing SSA policy. We
estimate for the records examined that over a 21-month period, SSA could recover a
maximum of about $13.4 million in SSI overpayments.

CONCLUSION AND RECOMMENDATIONS
SSA could improve its management controls over cross-program recovery. By
implementing appropriate policies and procedures and information systems support, the
Agency could effectively and efficiently use cross-program recovery as a debt collection
tool for OASDI overpayments. Also, the Agency should comply with its existing policy
for mandatory cross-program recovery of SSI overpayments. We recommend SSA
(1) implement the authority to use cross-program recovery to collect OASDI
overpayments; (2) comply with its policy for mandatory cross-program recovery of SSI
overpayments; and (3) review the individuals we identified that had SSI overpayment



Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                         i
indicators and were receiving OASDI benefit payments to determine whether mandatory
cross-program recovery should occur.

AGENCY COMMENTS
SSA generally agreed with our recommendations. Concerning Recommendation 3, the
Agency indicated it is likely that a significant portion of the SSI overpayments identified
in this audit were pending action to begin cross-program recovery per Agency policies
and regulations. SSA’s comments are included in Appendix D.

OIG RESPONSE
In response to the Agency’s concerns about the individuals identified as subject to
mandatory cross-program recovery, we are providing additional information. As of May
2006, we identified 1,502 individuals who met the Agency’s criteria for manual cross-
program recovery, as specified in Program Operations Manual System, SI
02220.020.C.2.a. Of the 1,502 individuals, Agency staff agreed to review information
for 3 individuals. SSA staff confirmed manual cross-program recovery should have
occurred for the debt of two individuals, and one individual’s debt was referred to the
Department of Justice for collection.

To address the Agency’s request that we screen-out individuals with cross-program
recovery exclusions, we randomly selected and reviewed the records for 30 of the
1,502 individuals identified to determine whether, as of May 2006, these individuals had
pending waiver or reconsideration requests or responded within 60 days to the
Agency’s initial notice of overpayment. We found none of these conditions were
applicable for 29 of the 30 individuals. For one individual, the 60-day time period had
not expired in May 2006. Therefore, we reaffirm our recommendation that SSA
determine whether mandatory cross-program recovery should occur for these 1,502
individuals.




Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                            ii
                                                                      Table of Contents
                                                                                                               Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW .......................................................................................... 3

SSA Had Not Fully Implemented its Cross-Program Authority, as
Authorized Under SSPA .......................................................................................... 4

    •    SSA Had Not Implemented the Collection of OASDI Overpayments
         When Individuals Received SSI Payments................................................... 4

    •    SSA Had Not Implemented the Collection of OASDI Overpayments
         When Individuals Concurrently Received SSI and OASDI Payments .......... 5

SSA Did Not Always Use Cross-Program Recovery to Collect SSI
Overpayments, as Required by Agency Policy ....................................................... 6

    •    SSA Did Not Always Comply with its Mandatory Cross-Program
         Recovery of SSI Overpayments ................................................................... 6

CONCLUSIONS AND RECOMMENDATIONS ....................................................... 8

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Estimation Methodology

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments




Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)
                                                                           Introduction
OBJECTIVE

Our objective was to review the Social Security Administration’s (SSA) actions
pertaining to cross-program recovery of benefit overpayments, 1 as authorized by the
Social Security Protection Act of 2004 (SSPA). 2

BACKGROUND
SSA administers the Old-Age, Survivors and Disability Insurance (OASDI), Special
Veterans Benefits (SVB), and Supplemental Security Income (SSI) programs under
Titles II, VIII and XVI of the Social Security Act, 3 respectively. Under the OASDI
program, monthly benefits are paid to eligible retired or disabled workers and their
families as well as survivors of deceased workers. Certain World War II veterans who
are eligible for SSI payments may be entitled to receive SVB benefits instead of SSI
when they reside outside the United States. SSI is a cash assistance program that
provides a minimum level of income to financially needy individuals who are aged, blind
or disabled.

SSA defines an overpayment 4 as the total amount an individual received for a period
that exceeded the total amount that should have been paid for that period. When an
overpayment is made, the overpayment is a debt owed the Government. 5 As we have
previously reported, 6 as a part of its stewardship responsibilities, SSA needs to prevent
overpayments.

Cross-program recovery is the process of collecting overpayments by withholding the
payable benefits individuals are to receive from another benefit program SSA
administers. Before SSPA was enacted in March 2004, the Agency had limited
authority to collect overpayments using cross-program recovery without the consent of

1
 We did not assess SVB payments. Under Title VIII of the Social Security Act, certain World War II
veterans may be entitled to SVB when they reside outside the United States.
2
    Public Law 108-203 § 210.
3
 The Social Security Act §§ 201 et seq., 801 et seq., and 1601 et seq., 42 United States Code §§ 401 et
seq., 1001 et seq. and 1381 et seq.
4
 Based on criteria as outlined in SSA’s Programs Operations Manual System (POMS), SM 00865.015, all
OASDI overpayments in our review can be considered as legally defined overpayments. Also, all SSI
overpayments in our review met the criteria for legally defined overpayments as outlined in SI 02201.005.
5
    POMS, GN 02201.001A.
6
 The Social Security Administration’s Decisions to Terminate Collection Efforts for Old-Age, Survivors
and Disability Insurance Overpayment, March 22, 2006.


Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                                            1
the overpaid individual. Section 1147 of the Social Security Act limited use of cross-
program recovery to the collection of SSI overpayments. Further, SSI overpayments
could only be collected from OASDI benefits if individuals were no longer eligible for SSI
payments, and collection each month was limited to 10 percent of the OASDI benefit
amount payable in that month.

SSPA reaffirmed the Agency’s authority to collect SSI overpayments under section
1147 of the Social Security Act and expanded its authority by allowing SSA to use
cross-program recovery to collect OASDI overpayments from SSI payments. Under
SSPA, the Agency can collect overpayments by withholding up to 100 percent of any
underpayments. 7 SSA can also withhold up to 10 percent from monthly payments to
offset any overpayments.

To identify overpayments for which cross-program recovery could be used, we analyzed
three data extracts. Data were extracted from SSA’s Supplemental Security Record
(SSR), Master Beneficiary Record (MBR), and Recovery of Overpayments, Accounting
and Reporting system. The information we analyzed was in these records as of
May 18, 2006. See Appendix B for discussion of the Scope and Methodology.

First, we analyzed a data extract of individuals receiving SSI payments who had OASDI
overpayment indicators on their records. Second, we examined a data extract of
information pertaining to individuals concurrently receiving SSI and OASDI payments
having either (1) OASDI overpayment indicators on their records; (2) SSI overpayment
indicators on their records; or (3) OASDI and SSI overpayment indicators on their
records. Finally, we assessed a data extract of information pertaining to individuals
receiving OASDI payments having SSI overpayment indicators on their records. None
of the individuals included in the data extracts had underpayment indicators on their
records.

Our analysis of the three data extracts identified instances where SSA could have used
its expanded authority to collect overpayments by using cross-program recovery. We
excluded from our review those instances where individuals had both OASDI and SSI
overpayment indicators on their records. These records had indicators of on-going
collection activities by the Agency.




7
 POMS, GN 02301.001 identifies an underpayment as any monthly benefit amount (or portion of a
monthly benefit amount) due a person which has not been paid.


Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                                  2
                                                                 Results of Review
The Agency had not fully implemented its cross-program authority as authorized under
SSPA. Specifically, the Agency is not collecting OASDI overpayments from current SSI
payments. As of March 2007, SSA’s plans only addressed using cross-program
authority to offset overpayments from underpayments. Agency staff stated SSA had not
made a decision to collect OASDI overpayments from monthly SSI payments. For the
records we reviewed, we estimate SSA could collect a maximum of about $3.6 million
over a 21-month period from SSI payments to recover OASDI overpayments. The
amounts recovered could also earn about $149,000 8 in interest for the OASDI trust
funds over a 21-month period. In addition, we found SSA did not always collect SSI
overpayments using cross-program recovery, as required by existing SSA policy. We
estimate for the records examined that over a 21-month period, SSA could recover a
maximum of about $13.4 million in SSI overpayments. Our estimates are summarized
in Table 1.

                         Table 1: Estimated OASDI and SSI Overpayments
                              Available for Cross-Program Recovery
                                        (Dollars in Millions)


             Type of                 Estimated       Estimated OASDI       Estimated SSI       Estimated
         Overpayment and             Number of        Overpayments         Overpayments     Overpayments
        Payment(s) Received         Records with    Available for Cross-    Available for   for Recovery in
                                    Overpayment     Program Recovery       Cross-Program       21-Month
                                                                                                       9
                                     Indicators                              Recovery           Period
       Individuals with OASDI               1,440                  $8.0                                  $1.0
       Overpayments Receiving
       SSI
       Individuals with OASDI             26,380                  $33.7                                 $2.6
       Overpayments
       Concurrently Receiving
       SSI and OASDI
       Individuals with SSI               30,040                                    $27.4              $13.4
       Overpayments Receiving
       OASDI
                            Total         57,860                  $41.7             $27.4              $17.0




8
  To compute the interest earned on amounts recovered, we assumed the estimated amount of funds
recovered in a 21-month period (about $3.6 million) is collected in equal monthly amounts (about
$169,895). We multiplied the total monthly balance of funds collected using cross-program recovery by
1/12 of 4.57 percent (annualized interest rate for fiscal year beginning October 1, 2005, as reported by
the Financial Management Service, a bureau of the Department of the Treasury).
9
    See Appendix C for the estimating methodology.


Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                                                  3
SSA HAD NOT FULLY IMPLEMENTED ITS CROSS-PROGRAM AUTHORITY, AS
AUTHORIZED UNDER SSPA

We found the Agency had not fully implemented its expanded cross-program recovery
authority under SSPA to collect OASDI overpayments from monthly SSI payments. As
of December 2006, SSA did not have policies and procedures to collect OASDI
overpayments from monthly SSI payments. Agency staff indicated SSA is working
toward implementing SSPA. However, as of March 2007, SSA’s plans only address
using cross-program authority to offset overpayments from underpayments. Agency
staff stated the Agency had not made a decision to collect OASDI overpayments from
monthly SSI payments. By not fully using its cross-program recovery authority, the
Agency has missed the opportunity to reduce monthly payments it made to individuals
who owed a debt to SSA.

We discussed our analysis with staff from the Office of Income Security Programs who
stated SSA plans to offset OASDI overpayments by withholding SSI underpayments.
Further, staff explained the Office of Systems was asked to make automated system
changes to allow the offset to occur by the fall of 2007. Office of Systems staff
confirmed the changes needed to withhold appropriate SSI underpayments would be
implemented by the end of Fiscal Year 2007.

 SSA Had Not Implemented          We found the Agency did not use cross-program
 the Collection of OASDI          recovery to collect OASDI overpayments when
 Overpayments When                individuals received SSI payments. Our review of the
 Individuals Received SSI         May 18, 2006, data extract found 72 individuals who
 Payments                         were receiving SSI payments with a total of
                                  $402,000 in OASDI overpayments on their records.
The 72 individuals’ records did not indicate on-going collection activities.

We estimate, as of May 2006, there were about 1,440 individuals receiving SSI
payments who had approximately $8 million of OASDI overpayment indicators on their
records. If the Agency used cross-program recovery, we estimate a maximum of about
$1 million could be collected during a 21-month period. In addition, we estimate the
OASDI trust funds could earn about $42,000 10 in interest over the same period.




10
  To compute the interest earned on amounts recovered from individuals receiving SSI, we assumed the
estimated amount of funds recovered in a 21-month period (about $999,247) is collected in equal monthly
amounts (about $47,583). We multiplied the total monthly balance of funds collected using
cross-program recovery by 1/12 of 4.57 percent (annualized interest rate for fiscal year beginning
October 1, 2005, as reported by the Financial Management Service, a bureau of the Department of the
Treasury).


Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                                        4
For example, the record for one individual who was receiving $722 11 in monthly SSI
payments indicated a $10,168 OASDI overpayment. Using cross-program recovery,
SSA could withhold a maximum of $72 each month from the payment, which would
reduce the overpayment to $9,304 at the end of a 12-month period.

                                       We found the Agency did not use cross-program
 SSA Had Not Implemented               recovery to collect OASDI overpayments when
 the Collection of OASDI               individuals received both SSI and OASDI payments.
 Overpayments When                     Our review of the May 2006 data found 1,319
 Individuals Concurrently              individuals receiving both payments that had about
 Received SSI and OASDI                $1.7 million in OASDI overpayments indicated on their
 Payments                              records. None of the records indicated SSI
                                       payments were being used to offset OASDI
overpayments.

We estimate as of May 2006 there were about 26,000 individuals receiving SSI and
OASDI payments concurrently with records indicating (1) approximately $33.7 million in
OASDI overpayments and (2) cross-program recovery was not being used to collect the
OASDI overpayments. For a 21-month period it is estimated an opportunity existed that
the Agency could collect a maximum of about $2.6 million of the OASDI overpayments
from the SSI payments. In addition, we estimate the OASDI trust funds could earn
about $107,000 12 in interest over the same period.

For example, the record for one individual indicated a $2,296 OASDI overpayment.
Each month this individual was receiving $228 in OASDI benefits and a $415 SSI
payment. We found no on-going collection actions for this individual. If cross-program
recovery was used, SSA could withhold a maximum of $41 each month from the SSI
payment. Using cross-program recovery over a 12-month period, the Agency could
have the opportunity to reduce the overpayment balance to $1,804.




11
  This amount reflects a monthly SSI payment of $603 and State supplementary payment of $119. If
existing Agency policy pertaining to the recovery of SSI overpayments from monthly SSI payments also
apply to cross-program recovery of OASDI overpayments, the State supplementary payment should be
considered when determining the amount to collect from an individual’s monthly SSI payment. See
Appendix D for related information.
12
  To compute the interest earned on amounts recovered from individuals receiving SSI we assumed the
estimated amount of funds recovered in a 21-month period (about $2,568,541) is collected in equal
monthly amounts (about $122,312). We multiplied the total monthly balance of funds collected using
cross-program recovery by 1/12 of 4.57 percent (annualized interest rate for fiscal year beginning
October 1, 2005, as reported by the Financial Management Service, a bureau of the Department of the
Treasury).


Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                                         5
SSA DID NOT ALWAYS USE CROSS-PROGRAM RECOVERY TO COLLECT SSI
OVERPAYMENTS, AS REQUIRED BY AGENCY POLICY

The Agency did not always use mandatory cross-program recovery to collect SSI
overpayments from OASDI payments. Existing Agency policy requires that the Agency
collect SSI overpayments from monthly OASDI benefits. By not always using cross-
program recovery, the Agency did not reduce monthly OASDI payments made to some
individuals who had SSI overpayments.

Before SSPA, SSA had limited authority to use cross-program recovery to collect SSI
overpayments from OASDI benefit payments. In October 1998, the Noncitizen Benefit
Clarification and Other Technical Amendments Act of 1998 13 added section 1147 of the
Social Security Act, authorizing the Agency to collect an SSI overpayment by
withholding up to 10 percent of the OASDI benefit without the overpaid individual’s
consent. Until February 2002, SSA continued to obtain signed statements from
individuals giving SSA permission to withhold monies from OASDI benefit payments to
recover SSI overpayments. Further, this type of cross-program recovery could only
occur if the individuals were no longer eligible for SSI payments.

In February 2002, SSA implemented a policy for mandatory cross-program recovery. 14
The March 2004 enactment of SSPA reaffirmed the Agency’s authority to collect SSI
overpayments from OASDI benefit payments. SSA uses the automated selection of
debts in the Recovery and Collection of Overpayments (RECOOP) system to collect
SSI overpayments from monthly OASDI benefit payments. SSA uses a manual process
when the debt is not in RECOOP.

                                 Our review of the data extract found SSA did not
SSA Did Not Always
                                 always collect SSI overpayments when individuals
Comply with its Mandatory
                                 were receiving OASDI benefit payments. Our review
Cross-Program Recovery of
                                 of the May 2006 data identified 1,502 individuals who
SSI Overpayments
                                 were receiving OASDI payments who had SSI
                                 overpayment indicators on their records. The SSI
overpayments totaled about $1.4 million. Mandatory cross-program recovery was not
being used to collect the SSI overpayments.

We estimate, as of May 2006, there were about 30,000 individuals receiving OASDI
payments who also had about $27.4 million with SSI overpayment indicators on their
records. For a 21-month period the Agency could collect a maximum of about
$13.4 million of the SSI overpayments using cross-program recovery.




13
     Public Law 105-306 § 8.
14
   POMS, Supplemental Security Income (SI) 02220.020, Cross Program Recovery of SSI Overpayments
from Monthly Title II Benefits.


Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                                 6
For example, one individual had a $2,035 SSI overpayment. This individual received a
monthly OASDI benefit payment of $1,001. If cross-program recovery was used, SSA
could withhold a maximum of about $100 a month from the OASDI benefit payment.
Over a 12-month period, the Agency could recover $1,200 in SSI overpayments and
reduce the overpayment balance to $835.

To determine why SSA did not use cross-program recovery, we met with staff of the
Deputy Commissioner for Budget, Finance and Management’s Office of Payment and
Recovery Policy to discuss the 1,502 individuals we identified. Agency staff agreed to
review information for three individuals. Staff indicated one individual’s overpayment
was referred to the Department of Justice for collection, and this action precluded SSA
from taking further action.

For the remaining two overpayments, Agency staff indicated “manual cross-program
recovery” should have occurred. Both overpayments were excluded from RECOOP
system processing. Staff indicated for one individual, their record was not converted
from the Interim Billing and Follow-up System to RECOOP when the conversion was
done in 1995. For the remaining individual, staff indicated the Agency “….revised
POMS to manually impose CPR [cross-program recovery] on EO1 [eligible but no
payment due] cases that meet the criteria.’’ 15




15
     POMS, SI 02220.020, Cross Program Recovery of SSI Overpayments from Monthly Title II Benefits.


Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                                        7
                                                 Conclusions and
                                                Recommendations
Before SSPA was enacted, the Agency was only authorized to use cross-program
recovery for the collection of SSI overpayments from OASDI benefit payments.
Enactment of SSPA provided SSA additional authority to recover OASDI overpayments,
and reaffirmed the Agency’s authority to collect SSI overpayments. We found SSA was
not always exercising this authority. As of May 2006, we estimate a maximum of about
$69.1 million in OASDI and SSI overpayments were available for cross-program
recovery. We recognize SSA may not use cross-program recovery in all instances.
However, if such collection action is determined appropriate, we estimate for the
records we examined a maximum of about $17 million of the overpayments could be
recovered in a 21-month period.

SSA could improve its management controls over cross-program recovery. By
implementing appropriate policies and procedures, and information systems support,
the Agency could effectively and efficiently use cross-program recovery as a debt
collection tool for OASDI overpayments. Also, the Agency should fully comply with its
existing policy for mandatory cross-program recovery of SSI overpayments. Use of
cross-program recovery will enable the return of monies to the trust funds, therefore
allowing those funds to earn interest. We estimate the interest not earned on the
OASDI trust funds to be a maximum of about $149,000 over a 21-month period.
Furthermore, the use of cross-program recovery would reduce the risk that some
overpayments would not be collected.

RECOMMENDATIONS
We recommend SSA:

1. Implement the authority to use cross-program recovery to collect OASDI
   overpayments.

2. Comply with its policy for mandatory cross-program recovery of SSI overpayments.

3. Review the individuals we identified that had SSI overpayment indicators and were
   receiving OASDI benefit payments, to determine whether mandatory cross-program
   recovery should occur.




Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                          8
AGENCY COMMENTS
SSA generally agreed with our recommendations. Concerning Recommendation 3, the
Agency indicated it is likely that a significant portion of the SSI overpayments identified
in this audit were pending action to begin cross-program recovery per Agency policies
and regulations. SSA’s comments are included in Appendix D.

OIG RESPONSE
In response to the Agency’s concerns about the individuals identified as subject to
mandatory cross-program recovery, we are providing additional information. As of May
2006, we identified 1,502 individuals who met the Agency’s criteria for manual cross-
program recovery, as specified in Program Operations Manual System, SI
02220.020.C.2.a. Of the 1,502 individuals, Agency staff agreed to review information
for 3 individuals. SSA staff confirmed manual cross-program recovery should have
occurred for the debt of two individuals, and one individual’s debt was referred to the
Department of Justice for collection.

To address the Agency’s request that we screen-out individuals with cross-program
recovery exclusions, we randomly selected and reviewed the records for 30 of the
1,502 individuals identified to determine whether, as of May 2006, these individuals had
pending waiver or reconsideration requests or responded within 60 days to the
Agency’s initial notice of overpayment. We found none of these conditions were
applicable for 29 of the 30 individuals. For one individual, the 60-day time period had
not expired in May 2006. Therefore, we reaffirm our recommendation that SSA
determine whether mandatory cross-program recovery should occur for these
1,502 individuals.




Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                            9
                                         Appendices




Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)
                                                                 Appendix A

Acronyms
 OASDI            Old-Age, Survivors and Disability Insurance
 MBR              Master Beneficiary Record
 RECOOP           Recovery and Collection of Overpayments
 ROAR             Recovery of Overpayments Accounting and Reporting System
 SSA              Social Security Administration
 SSI              Supplemental Security Income
 SSN              Social Security Number
 SSPA             Social Security Protection Act of 2004
 SSR              Supplemental Security Record
 SVB              Special Veterans Benefit




Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)
                                                                        Appendix B

Scope and Methodology
To accomplish our audit objective, we:

•   Reviewed Federal laws, regulations, and Social Security Administration‘s (SSA)
    policies and procedures related to cross-program recovery efforts.

•   Identified and reviewed prior Office of the Inspector General reports.

•   Interviewed and conducted meetings with SSA officials.

•   Obtained and analyzed three electronic data extracts of information recorded in the
    Agency’s Supplemental Security Record (SSR), Master Beneficiary Record (MBR)
    and Recovery of Overpayments Accounting and Reporting (ROAR) systems.

•   Reviewed critical data elements within the SSRs, MBRs and ROAR system.

•   Compared and reconciled overpayment amounts recorded in SSA’s records to benefit
    payment amounts reported in the data extracts.

•   Determined whether SSA was collecting Old-Age, Survivors and Disability Insurance
    (OASDI) overpayments from Supplemental Security Income (SSI) payments. Also
    determined whether SSA was collecting SSI overpayments from OASDI benefit
    payments. We excluded those instances where individuals had both OASDI and SSI
    overpayment indicators on their records. In these instances, the records had
    indicators of on-going collection activities by the Agency.

•   Quantified the overpayment amounts and amounts available to SSA for collection, if
    cross-program recovery of these funds occurred.

We conducted our review between May and October 2006 in Baltimore, Maryland. We
determined that the data used in this report were sufficiently reliable given our review
objectives and intended use of the data. The electronic data used in our review were
primarily extracted from the SSR, MBR and ROAR system. We assessed the reliability
of the electronic data by reviewing the electronic data extract for all the data elements
needed to meet our objective. We also traced information from the data extract to the
MBR, SSR and ROAR source database. Finally, we verified the data extract contained
the information we requested. The principal entity audited was the Office of Income
Security Programs under the Deputy Commissioner for Disability and Income Security
Programs. We conducted our audit in accordance with generally accepted government
auditing standards.



Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)
                                                                     Appendix C

Estimation Methodology
We obtained and analyzed three electronic data extracts of information taken from the
Agency’s Master Beneficiary (MBR) and Supplemental Security Records (SSR). The
MBR and SSR are comprised of 20 specific groupings of records called “segments.”
The three data extracts we reviewed were comprised of information taken from one
MBR/SSR segment. The characteristic/result for one segment can be multiplied by
20 to estimate the existence of that characteristic/result in the MBR/SSR population.
Based on our analysis, we developed estimates for the collection of overpayments
using cross-program recovery when individuals receive Supplemental Security Income
(SSI) payments, concurrent SSI and Old-Age, Survivors and Disability Insurance
(OASDI) payments, and OASDI payments.

Excluded from our review and estimates are individuals that had both OASDI and SSI
overpayment indicators on their records. In these instances, the records had indicators
of on-going collection activities by the Agency.

The three data extracts we reviewed contained information recorded on the MBRs and
SSRs as of May 18, 2006. First, we reviewed a data extract of information pertaining to
individuals receiving SSI payments having OASDI overpayment indicators on their
records. Second, we analyzed a data extract of information pertaining to individuals
concurrently receiving SSI and OASDI payments having either (1) OASDI overpayment
indicators on their records; (2) SSI overpayment indicators on their records; or
(3) OASDI and SSI overpayment indicators on their records. Finally, we examined a
data extract of information pertaining to individuals receiving OASDI payments having
SSI overpayment indicators on their records. None of the individuals included in the
data extracts had underpayment indicators on their records. Based on our review
objective, we removed those records with overpayment indicators that were not eligible
for cross-program recovery efforts.

OASDI Overpayments Collected Using Cross-Program Recovery
When Individuals Received SSI Payments

In the first data extract we reviewed, there were 72 records with OASDI overpayments
totaling about $401,942 for individuals receiving only SSI payments. None of these
records had indicators of on-going collection activities by the Agency. We multiplied
72 and $401,942 by 20 to develop estimates for the number of records having OASDI
overpayments, and the amount of those overpayments. When individuals receive SSI
payments, we estimate 1,440 records have $8,038,844 in OASDI overpayments as of
May 18, 2006.




Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                       C-1
We determined the maximum estimated amount of OASDI overpayments that could be
collected using cross-program recovery when individuals receive SSI payments. The
following methodology was used.

•     We multiplied the monthly SSI payments indicated for each of the 72 records by the
      maximum percent (10 percent) that could be collected using cross-program
      recovery. The monthly SSI payment amounts, where applicable, included the State
      supplementary payments. 16 If existing Agency policy 17 for the recovery of SSI
      overpayments apply to cross-program recovery of OASDI overpayments, State
      supplementary payments should be considered when determining the maximum
      amount that could be collected from monthly SSI payments. Therefore, our
      computations included these amounts where appropriate.

•     We performed the above computation for 21 consecutive monthly payments or until
      the total amounts of the OASDI overpayments indicated for the 72 records were fully
      recovered. Our computations assumed: (1) there we no changes to the monthly SSI
      payments during this 21-month period; and (2) the maximum amount was collected
      each month from the payments. For the 72 records, a maximum of $49,962 could
      be collected over a 21-month period from SSI payments using cross-program
      recovery to collect OASDI overpayments.

•     We used the results of our computations for the 72 records (one segment) to
      estimate the total amount that could be collected from SSI payments for OASDI
      overpayments over a 21-month period. We estimate a maximum of $999,247 could
      be collected from SSI payments using cross-program recovery to collect OASDI
      overpayments. Of this amount, we estimate $515,488 could be collected during the
      period from June 2006 through February 2007. The remaining $483,759 could be
      collected from March 2007 through February 2008.

OASDI Overpayments Collected Using Cross-Program Recovery
When Individuals Concurrently Received SSI and OASDI Payments

In the second data extract we reviewed, there were 1,319 records with OASDI
overpayments totaling $1,682,615 for individuals concurrently receiving SSI and OASDI
payments. We multiplied 1,319 and $1,682,615 by 20 to develop estimates for the
number of records having OASDI overpayments, and the amount of those
overpayments subject to cross-program recovery. When individuals concurrently
receive SSI and OASDI payments, we estimate 26,380 records have $33,652,293 in
OASDI overpayments as of May 18, 2006.


16
  Program Operations Manual System (POMS) SI 01401.001, states “in addition to the Federal
supplemental security income (SSI) payment, States may provide additional benefits to their own
recipients in recognition of the variations in living costs from one State to another and for the special
needs of some individuals.”
17
     POMS SI 02220.016.


Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                                              C-2
We used a rather unique estimating methodology for those individuals concurrently
receiving SSI and OASDI payments, to determine the maximum estimated amount of
OASDI overpayments that could be collected using cross-program recovery. The
methodology was based, in part, on sampling and excluding certain records from our
estimates. None of the 1,319 records we identified had indicators that cross-program
recovery was being used to withhold SSI payments to offset the OASDI overpayments.
However, we used sampling results to exclude from our estimates those records with
indicators that the Agency was withholding a portion of the monthly OASDI payments to
collect OASDI overpayments. The following methodology was used.

•   Of the 1,319 records we randomly selected and examined SSRs and MBRs for
    100 individuals. We found records for 46 individuals had no indication that the
    Agency was collecting OASDI overpayments by withholding a portion of the monthly
    OASDI payments. None of these records indicated State supplementary payments
    were being received. Using this information, we estimate 607 of the 1,319 records
    did not have portions of monthly OASDI payments withheld to collect OASDI
    overpayments.

•   We multiplied the monthly SSI payments indicated for each of the 46 records by the
    maximum percent (10 percent) that could be collected using cross-program
    recovery. Again, this computation was performed for 21 consecutive monthly
    payments or until the total amounts of the OASDI overpayments were fully
    recovered. Similar to the previously discussed methodology, our computations
    assumed: (1) there were no changes to the monthly SSI payments during the
    21-month period; and (2) the maximum amount was collected each month from the
    payments. For the 46 records, a maximum of $9,735 could be collected over a
    21-month period from SSI payments. Using this information, for the 607 records we
    estimate a maximum of $128,427 could be collected over the same period for the
    OASDI overpayments.

•   The estimates for the 607 records (one segment) were used to calculate the total
    amount that could be collected from SSI payments for OASDI overpayments when
    individuals concurrently received SSI and OASDI payments. Over a 21-month
    period, we estimate a maximum of $2,568,541 could be collected from SSI
    payments using cross-program recovery to collect OASDI overpayments. We
    estimate $1,519,000 could be collected during the period from June 2006 through
    February 2007. The remaining $1,049,541 could be collected from March 2007
    through February 2008.

SSI Overpayments Collected Using Cross-Program Recovery
When Individuals Received OASDI Payments

In the third data extract we reviewed, there were 1,502 records with SSI overpayments
totaling $1,367,670 for individuals receiving OASDI payments. None of these records
had indicators of on-going collection activities by the Agency. We multiplied 1,502 and
$1,367,670 by 20 to develop estimates for the number of records having SSI


Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                       C-3
overpayments, and the amount of those overpayments. When individuals receive
OASDI payments, we estimate 30,040 records have $27,353,404 in SSI overpayments
as of May 18, 2006.

We estimated the amount of SSI overpayments that could be collected from OASDI
payments by applying the methodology we used to compute the collection of OASDI
overpayments from SSI payments. Similar to the previously discussed methodology,
the collections from OASDI payments pertain to records which indicated these were the
only payments individuals received. For the 1,502 records, a maximum of
$667,665 could be collected over a 21-month period from OASDI payments using
cross-program recovery. Based on our calculations, we estimate SSA can recover a
maximum of $13,353,291 in SSI overpayments from individuals receiving OASDI
payments. Of the $13,353,291, a total of $8,789,634 could be collected from June 2006
through February 2007. The remaining $4,563,657 could be collected during the next
12-month period.




Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                    C-4
                                                                 Appendix D

Agency Comments




Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)
                                 SOCIAL SECURITY


MEMORANDUM


Date:      May 31, 2007                                                  Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/

Subject:   Office of the Inspector General (OIG) Draft Report, “Cross-Program Recovery of
           Benefit Overpayments” (A-13-06-16031)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft
           report’s content and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff,
           at (410) 965-4636.

           Attachment:




Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                                  D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "CROSS-PROGRAM RECOVERY OF BENEFIT OVERPAYMENTS" (A-13-
06-16031)


Thank you for the opportunity to review and comment on the draft report findings and
recommendations. We are disappointed that the report does not fully acknowledge the Agency’s
efforts in working toward implementation of the mandated Cross-Program Recovery (CPR)
provisions as called for in the Social Security Protection Act (SSPA) of 2004. The complicated
nature of our programs and systems, as well as the sensitive issue of collection from the low
income Supplemental Security Income (SSI) program recipients requires that we implement CPR
carefully (in phases) in order to avoid additional payment errors. The next phase of CPR, the
collection of Old Age Survivors and Disability Insurance (OASDI) debts from SSI
underpayments, will be implemented in August 2007. Also, as indicated in our response to the
recommendations below, we have submitted for funding through the Information Technology
Advisory Board (ITAB) resource allocation process a number of system enhancements to assist
in implementing CPR initiatives. The report should acknowledge that the Agency is pursuing
implementation of all facets of CPR as resources allow.

Regarding the results of the sample, OIG identified 1,502 individuals with overpayment
indicators on their SSI record, but whose overpayments were not being collected from their
OASDI benefits. Of those cases, only three were reviewed to determine why CPR was not in
place. Specifically, OIG reports that one was correctly excluded from CPR while the other two
required manual processing by the Agency to impose CPR. While OIG’s methodology states
that OIG "removed those records with overpayment indicators that were not eligible for cross-
program recovery efforts," however, there is no indication that OIG screened out all cases which
would preclude CPR on SSI records as indicated in Program Operations Manual System
SI 0220.020.A.2. Additionally, the methodology does not address whether or not OIG
considered SSI overpayments pending due process or awaiting manual diary resolution. In
summary, there are a number of legitimate reasons that cases are correctly excluded from CPR.
It is possible that a significant portion of the SSI overpayments identified in this audit were
pending action to begin CPR per Agency policies and regulations. Our responses to the specific
recommendations, as well as some technical comments, are provided below.

Recommendation 1

SSA should implement the authority to use cross-program recovery to collect OASDI
overpayments.

Response

We agree. It should be noted that there have been several previous system releases, prior to this
one, which have supported the expanded authority given to us in the SSPA legislation for CPR.
In August 2007, we will implement recovery of OASDI overpayments from SSI underpayments.
The proposal to implement recovery of OASDI overpayments from ongoing monthly SSI
payments is pending the outcome of the July ITAB decisions.



Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                                D-2
Recommendation 2

SSA should comply with its policy for mandatory cross-program recovery of SSI overpayments.

Response

We agree. We have automated the collection of SSI overpayments from OASDI benefits.
However, some cases are excluded from automated processing and others are pending mandatory
due process actions prior to collection by CPR. During due process, cases will show pending
overpayments, but are restricted from CPR until due process is complete. Most due process on
overpayments is automated. The cases requiring manual due process actions are controlled by a
diary system in the field offices.

A systems’ proposal to automate the selection of SSI debts that are not in the Recovery and
Collection of Overpayment Process has been considered repeatedly through the ITAB system
resource allocation process, but the proposal has fallen below the line and remains unfunded.

Recommendation 3

SSA should review the individuals we identified that had SSI overpayment indicators and were
receiving OASDI benefit payments to determine whether mandatory cross-program recovery
should occur.

Response

As noted in paragraph 2, we are concerned that the cases in this sample included cases that were
correctly excluded from CPR (i.e., were pending manual action, were in due process). Since it is
likely that a significant portion of the SSI overpayments identified in this audit were pending
action to begin CPR per Agency policies and regulations, we request that OIG screen-out cases
with legitimate CPR exclusions prior to providing us with the listing. We will then review the
cases as Agency resources permit.



[In addition to the information listed above, SSA also provided technical comments
which have been addressed, where appropriate, in this report.]




Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)                                  D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
Shirley E. Todd, Director, General Management Audit Division, (410) 966-9365

Randy Townsley, Audit Manager, General Management Audit Division, (410) 966-1039

Acknowledgments
In addition to those named above:

   Linda Webester, Auditor-in-Charge

   Nicole Gordon, Auditor

   N. Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-13-06-16031.




Cross-Program Recovery of Benefit Overpayments (A-13-06-16031)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
